Case 18-1831, Document 154, 06/10/2020, 2858831, Pagel of 1
i

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 10th day of June, two thousand twenty,
Before:

RAYMOND J. LOHIER, JR.,
JOSEPH F. BIANCO,
MICHAEL H. PARK,
Circuit Judges.

United States of America,

ORDER
Docket No. 18-1831

Appellee,
v.
David Gilmartin,
Defendant - Appellant.

Appellant David Gilmartin having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

Case 18-1831, Document 144-1,05/05/2020, 2831831, Pagel of 5
■ r

*

f

18-1831
United States v. Gilmartin

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION "SUMMARY ORDER"). A PARTY CITING TO A
SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 5th day of May, two thousand twenty.
PRESENT: RAYMOND J. LOHIER, JR.,
JOSEPH F. BIANCO,
MICHAEL H. PARK,
Circuit fudges.
UNITED STATES OF AMERICA,
Appellee,
v.
DAVID GILMARTIN,

No. 18-1831

Defendant-Appellant.

FOR DEFENDANT-APPELLANT:

David Gilmartin, pro se,
Barstow, CA.

Case 18-1831, Document 144-1,05/05/2020, 2831831, Page2 of 5
*<

1

Stanley J. Okula, Jr., Nanette L.
Davis, Special Assistant United
States Attorneys, Karl
Metzner, Assistant United
States Attorney, for Geoffrey S.
Berman, United States
Attorney for the Southern
District of New York, New
York, NY.

FOR APPELLEE:

2
3
4
5

6
7
8

9
10
11
12

Appeal from a judgment of the United States District Court for the
Southern District of New York (Valerie E. Caproni, Judge).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED,

13

AND DECREED that the amended judgment and orders of the District Court are

14

AFFIRMED.

15

David Gilmartin appeals from an amended judgment and orders, entered

16

on May 9, 2018 and June 5, 2018, by the United States District Court for the

17

Southern District of New York (Caproni, J.) modifying the restitution order that

18

was imposed at Gilmartin's sentencing and denying Gilmartin's motion to

19

reconsider the modification. We assume the parties' familiarity with the

20

underlying facts and prior record of proceedings, to which we refer only as

21

necessary to explain our decision to affirm.

2

Case 18-1831, Document 144-1,05/05/2020, 2831831, Page3 of 5

1

As an initial matter, we note that the parties dispute whether our review

2

on appeal is limited to the District Court's denial of the motion for

3

reconsideration, or whether we can review the underlying order that modified

4

the restitution order. Given the limited scope of the notice of appeal, which by

5

its terms designates only the District Court's order denying the motion for

6

reconsideration, we agree with the Government that our review is limited to

7

whether the District Court's denial of reconsideration was an abuse of discretion.

8

See Shrader v. CSX Transp., Inc., 70 F.3d 255, 256 (2d Cir. 1995).

9

We conclude that the District Court did not abuse its discretion in denying

10

Gilmartin's motion for reconsideration. See United States v. Yalincak, 853 F.3d

11

629, 635 (2d Cir. 2017). The motion failed to raise any new arguments that the

12

District Court had not already addressed in its May 1, 2018 opinion and order.

13

The motion also did not point to controlling authority or evidence that the

14

District Court overlooked in its original order. See Shrader, 70 F.3d at 257.

15

Even assuming that we have jurisdiction to review the underlying

16

modification, see Van Buskirk v. United Grp, of Cos., Inc., 935 F.3d 49, 52 (2d Cir.

17

2019), we conclude that the District Court did not err in modifying Gilmartin's

3

Case 18-1831, Document 144-1,05/05/2020, 2831831, Page4 of 5
'c-

1

restitution order. We review the imposition of a restitution order for abuse of

2

discretion, but our review is de novo when the defendant asserts an error of law.

3

United States v. Thompson, 792 F.3d 273, 276-77 (2d Cir. 2015). A district court

4

may modify the restitution schedule if there is a "material change in the

5

defendant's economic circumstances." 18 U.S.C. § 3664(k).

6

There is no doubt that Gilmartin's economic circumstances materially

7

changed after his release from prison. At the time of sentencing, Gilmartin was

8

not collecting Social Security benefits. Following his release, Gilmartin elected to

9

receive Social Security benefits, which satisfies the statutory test for a "material

10

change in the defendant's economic circumstances." 18 U.S.C. § 3664(k); see also

11

United States v. Grant, 235 F.3d 95,100-01 (2d Cir. 2000) (holding that the release

12

of frozen funds and the consequent availability of the funds following

13

defendant's release from prison constituted a "material change"). Gilmartin also

14

argues that the sentencing judge intentionally exempted any Social Security

15

retirement benefits from restitution payments. In the absence of more explicit

16

language that the sentencing judge even considered Gilmartin's Social Security

17

benefits, we cannot conclude that those benefits were purposefully exempted

4

Case 18-1831, Document 144-1,05/05/2020, 2831831, Page5 of 5
-f
■k

1
2

from these payments as Gilmartin claims.
We have considered Gilmartin's remaining arguments and conclude that

3

they are without merit. For the foregoing reasons, the amended judgment and

4

orders of the District Court are AFFIRMED.

5

6

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

7

5

g§§§ v&temmwm §@§ym§ntl§

MEMO ENDORSED United States District Court
for the
Southern District of New York
United States of America,
Complainant
v
David Gilmartin,
Defendant.

Pag@l@f§
USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_________________
DATE FILED: 6/4/2018

Defendant's motion for
reconsideration is DENIED.
Defendant raises no arguments
Docket #l:12-cr-287
that the Court has not already
considered and addressed in its
May 1, 2018 order (Dkt. 86).
Motion for Reconsideration The Clerk is respectfully
directed to mail a copy of this
endorsement to Defendant.
SO ORDERED.

MoJLlZ^
5/4/2018

'
1

Defendant David Gilmartin moves this court to reconsider its order of
lMay2018 pursuant to Local Criminal Rule 49.1, Service and Filing of Motion
Papers.
This court has no authority under 18 USC 3664(k) to rewrite the order of
restitution unless there has been a material change in my economic condition since
sentencing. On 16M2013, when I was sentenced, I had no income. Today I have
an annual income of S3 5k. That is a material change in my economic condition,
and it makes it possible for me to make larger monthly payments toward
restitution. The court’s order of lMay2018 has used this change to rewrite Judge
Cedarbaum’s schedule for restitution, ordering me to pay “10% of Defendant’s
earnings, Social Security, and any pension, annuity, gift, inheritance or other
source of income to which he is entitled”, that is, 10% of income.1
If instead of drawing Social Security retirement benefits, I had successfully
returned to my former occupation and earned, in a good year, $200k, the original

1 An expression of the form "10% of A, B, C and other income” means 10% of income, but it implies that A, B
and C are examples of income and it makes these examples explicit.

I

g§§§ ijll=§F=§§i§7=Vi§ §@§ym@nt§§ NlF>§g§i@f§

order of restitution would have taxed 10% or $20k. On the other hand, if I had
taken a part-time, minimum-wage job, and received, over a year’s time, wages of
Si6k, the original order would have taxed away $1600 at the 10% rate. Whether I
received annually $16k from this low-end job, or $3 5k from Social Security, or
$200k from consulting, then in comparison to my lack of income at the time of
sentencing, there would have been a material change in my economic conditions.
By such a concept of “material change”, there is nothing final about the
Final Judgment, since all outcomes will show a material change in my economic
circumstances. This interpretation deprives Judge Cedarbaum of her power to set
the schedule for restitution. Judge Cedarbaum had the power to sentence me to
between six and seven years in prison in accordance with the sentencing
guidelines, or to go higher, but in fact she made a downward departure, and
sentenced me to four years.
As the lMay2018 order says (at the top of page 2), I was eligible for Social
Security, based on my age the day I was interviewed for the PSR, my age being 69.
The court added that “the sentencing judge knew that [I] was entitled to draw
Social Security” (first paragraph starting on page 6). Her choice to base my
restitution on my earnings was another downward departure, and within her
discretion to make.
The order argues that it cannot conclude that Judge Cedarbaum “intended to
exclude Social Security benefits as a source of income from which Defendant must
pay restitution if he ultimately decided to draw that benefit.” But this is backward.
3664(k) requires the court to establish the condition “material change” or the court
has no authority to revise the restitution schedule in Judge Cedarbaum’s Final
Judgment.

g§§§ v&Mmmims §@§um§nt§§ mdmmm p§i§i@fi
Judge Cedarbaum could have scheduled restitution at 10% of income, but
she made a downward departure by ordering me to pay 10% of my earnings. She
certainly knew the difference. The court’s order of lMay2018 would deprive
Judge Cedarbaum of her power to schedule restitution according to her discretion.
Restitution of a particular amount each month may depend on my evolving
economic condition. But when the restitution schedule is 10% of earnings (or
income), then restitution automatically adjusts for every change in economic
condition. If I go from a low-end job making $16k annually to a consulting
business earning $200k annually, there is a dramatic change in my economic
condition, but there is no need to revise the restitution schedule in my Final
Judgment.
A final point concerns hiding, omission, deception or perjury on the
financial disclosure. Grant2 concerned Robert Grant’s frauds committed through
the US Mail while he was incarcerated by the state of New York, and the
disposition of some of his ill-gotten gain. The Second Circuit said (pages 100-101)
several things relevant to omissions on a financial disclosure:
1.

2.

3.

“Because the district court made no finding as to whether Grant
concealed or failed to report assets, we do not reach the issue of
whether the subsequent discovery of assets [$400 in Grant’s
prison account] concealed by a defendant would constitute a
material change in circumstances. Surely, however, there would
be a remedy that would permit the gathering of assets that were
unknown to the authorities [at the time of sentencing] as the
result of a defendant's dishonesty.”
“[T]he district court [committed] error in classifying its later
acquisition of knowledge of the inmate account as a material
change in Grant’s economic circumstances”.
“[S]ince the funds were frozen, they were not an asset to which
the defendant had access.”

2 Grant: US v Robert Grant, 235 F3d 95 (Second, 13Dec2000)

§a§§ lill=§F=§§il7=Vi§ e§§ymgnt§l Filed §§/22/i§ Fa§§4@f§

4.

“The release of the account and the consequent availability of
the funds meet the statutory test for a ‘material change in the
defendant's economic circumstances’.”
In summary, the Second Circuit implies but does not explain
5.
the reason that “material change” means a material change from
what the sentencing judge knew when she relied on the
defendant’s financial disclosure.
In Note 6, the Roush3 court wrote the rule I have just enunciated (in Point 5
under Grant), that is,
1. “Discovery of previously unknown or hidden assets would also
constitute a change in the defendant's economic circumstances that
could justify modification under section 3664(k), as it would be a
change in the economic circumstances presented to the court at
sentencing.”
In Grigsby4, Philip Grigsby concealed or failed to disclose $501c in a union
retirement fund. The USDC Kansas (Wichita) discovered the hidden asset and
modified the restitution schedule in its Final Judgment so as to disgorge the new­
found funds, “as the interests of justice require pursuant to 18 USC 3664(k)”. (style
adapted) The Tenth Circuit found no error in the court’s order.
In the 22 year history of the Mandatory Victim Restitution Act of 1996,
“material change in economic circumstances” has been recognized as an initial
obstacle to any revision under 3664(k) of the trial and sentencing court’s schedule
of restitution, and the base circumstances for assessing a possible change are the
circumstances known to the sentencing judge. It is the defendant’s responsibility
to disclose his financial circumstances. When the financial affidavit is found to
have been erroneous due to simple error or conniving, then 3664(k) authorizes a
revision of the schedule of restitution.

3 Roush. US v Edward Roush, Jr., 452 FSupp2d 676 (USDC Texas Northern (Dallas), 27Sep2006)
4 Grigsby: US v Philip Andra Grigsby, Docket #16-3061 (Tenth Circuit, 7Dec2016)

ga§§

g§§um§ntii Filed e§/@4/is Fag§i§f§

Conclusion
18 USC 3664(k) authorizes a revision of the schedule of restitution only if
there is a “material change in economic circumstances”. This phrase means a
change from the circumstances as they were known to the court at the time of
sentencing.
But here, in US v Gilmartin, there is no such changed circumstance,
economic or financial. All of the relevant information was known to Judge
Cedarbaum. There was no omission of any financial data, nor was there any
hiding of financial data, nor has the prosecutor claimed that my finances were
omitted or hidden. There is therefore no authority for this court to revise the
schedule of restitution.

Prayer
That this court replace its order with one that recognizes the trial and
sentencing judge’s prerogative in this area, by leaving unchanged the Final
Judgment as ordered by Judge Cedarbaum.
AFFIDAVIT.
I, David Gilmartin, testify under penalties of perjury that the facts presented in this
motion are true and correct to the best of my knowledge and belief.
CERTIFICATE OF SERVICE
I, David Gilmartin, hereby certify that I am serving this Motion for
Reconsideration, using First Class Mail, on AUSA Stanley Okula at the Office of
the US Attorney, One Saint Andrews Plaza, New York, New York 10007.

Date: May 15, 2018
David Gilmartin
1240 Windy Pass #2
Barstow, California 92311

g§§§ illl=§F=@§i@?=Vi§ Segumeni SI Fil@^ §§/§2/l§ Pap i ef I

Attachment A. My eligibility for Social Security,
as shown in my career
1. The presentence report (PSR) reported that I had no income and that I had total
assets of only $85. The court noted (Memorandum and Order, at the top of
page 2) that I was eligible for Social Security, based on my age the day I was
interviewed for the PSR, my age being 69. The court added that “the
sentencing judge knew that [I] was entitled to draw Social Security” (first
paragraph starting on page 6).
2. I do not dispute that my income was zero, nor that my assets totaled $85, nor
that I was eligible for Social Security retirement benefits. I agree with what this
court has stated.
3. Since I was eligible for Social Security, why did I report that I had no income?
a. I had been working at a long series of jobs since my wife and I married
during my junior year at Texas Christian University. I was the only
support of my wife and children during the 1960s and 70s and into the
80s, while our children were still in the house.
b. By the early 70s I was working as an economist for private corporations
and government agencies, first ABD (all but dissertation), and then PhD.
My entire income was documented by IRS Forms W-2.
c. After 1990,1 .worked independently. Usually this work was documented
by IRS Forms 1099, but sometimes by W-2s.
d. My consulting work continued almost up to the week of my trial, in
Jan2013. After conviction, I made no attempt to return to consulting,
since I was facing sentencing and incarceration in two or three months.
The costs of my legal defense had drained my resources, and I had only
enough money for rent, food and transportation before I left my
belongings in the hands of family and friends and my daughter drove me
to Federal Prison Camp at Lompoc, California, on 10ct2013.
e. I had liquidated all my assets, and had none left. I had spent the money
in my bank account, and had a small bit of cash in my pocket at the time
of sentencing. I survived on a few small gifts from supporters until I
entered prison.
f. It turned out to be eight months from conviction (23 Jan2013) to
incarceration (10ct2013), but I never had more than three months’ notice
on incarceration. Since Social Security does not send benefits to
prisoners, this short horizon left no time to apply for retirement benefits.
Nor could I have returned to consulting, since I couldn’t commit to a

§§§§ lili=§F=§§i§7=v§§ e§§ymgntii Piled §§/04/l§. Page 7 §f §

project for more than two months, given the uncertainties of sentencing
and incarceration.
g- Thus during the months leading up to sentencing and then in the short
time between sentencing and incarceration, my assets were exhausted,
my cash was no more than pocket money, and my income was non­
existent.
h. My plan for supporting myself after release from prison was to return to
my consulting work, or since I would then be age 74, as an alternative, I
could begin to draw my retirement benefits under Social Security.
i. That is why I had no income at all at the time of sentencing.

g§§§ l!li=§F=0§ilf=Vig S@§ym@nl§! Eil§g 6§/@4/!§ Page left

Attachment B. The special nature of Social Security
in a financial disclosure
1. The parallel question is why I had no assets, given that I was eligible for Social
Security.
a. I filled out the personal balance sheet, revealing my assets and liabilities,
as a part of the required financial disclosure,
b. “an affidavit fully describing the financial resources of the defendant,
including a complete listing of all assets owned or controlled by the
defendant as of the date on which the defendant was arrested, the
financial needs and earning ability of the defendant and the defendant’s
dependents, and such other information that the court requires relating to
such other factors as the court deems appropriate” according to 18 USC
3664(d)(2).
c. The long form, identified as Probation Form 48 (Rev. 900), required from
me “a complete listing of all assets you own or control as of this date and
any assets you have transferred or sold since your arrest... [whether]
yours alone ... or jointly held ... [or] held by [others] that you enjoy the
benefit of....”:
d. This included all
i. Bank accounts,
ii. Securities,
iii. Money owed to me by others,
iv. Life insurance policies, at their cash-surrender value,
v. Safe-deposit boxes or storage space,
vi. Motor vehicles,
vii. Real estate,
viii. Mortgage loans owed to me,
ix. Other assets, including cash on hand, jewelry, art, paintings, coin
and stamp collections, other collectibles, antiques, copyrights,
patents and so forth.
x. Anticipated assets, including any assets you expect to receive or
control from lawsuits for compensation or damages, profit-sharing,
pension plans, inheritance, wills, or as an executor or administrator
of any succession or estate.
xi. Trust assets, including all trusts in which your are a grantor, the
trustee or a fiduciary, and finally,

g§§§ lili=§F=§0ii7=Vi§ 0§§umgnt§§ Nl§§l 3§/@^/IS P§fgi@f§

xii. Business holdings, including businesses in which you have an
interest or with which you were affiliated within the last three
years.
2. The list did not include Social Security because Social Security is not an asset.
It is an entitlement, wholly dependent on the whim of Congress to fund it, to
cover its deficits, to increase or decrease the benefits, or restructure them in
favor of one group or another. My entitlement entitles me to whatever
Congress gives me for this year. There is no asset value that I could liquidate to
fund other things, or mortgage, or give away. By contrast, union and corporate
pensions are assets based on the firm’s turnover for different types of work and
the actuarial investments needed to fully fund the promises (especially since the
Employee Retirement Income Security Act of 1974), but Social Security is not
an asset, and it is not funded and it is not actuarially sound. Therefore, the
balance sheet (Form 48) collects no information about it, and as the court
observed, “The PSR was entirely silent on the Defendant’s eligibility for Social
Security benefits. See id.” (the top of page 2)
3. However, to repeat what I brought out above, under point #1 of Attachment A,
a. the sentencing judge knew at the time of sentencing that I was eligible for
Social Security,
b. the court knows today that I was eligible at the time of sentencing, and
c. the court knows today that the sentencing judge knew at the time of
sentencing that I was eligible for Social Security.
4. This court wrote (the bottom of page 2), “Once released from prison, sometime
in mid-2017, Defendant decided to begin to draw his Social Security retirement
benefits. See Dkt. 75 at 1; Dkt. 84 at 4.”

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 1 of 8

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_________________
DATE FILED: 5/1/2018

UNITED STATES OF AMERICA,
12-CR-287 (VEC)
-againstMEMORANDUM
OPINION AND ORDER

DAVID GILMARTIN,
Defendant.
X
VALERIE CAPRONI, United States District Judge:

In July 2013, Defendant David Gilmartin was convicted for engaging in a multi-year tax
evasion scheme. See Judgment, Dkt. 60. The sentencing court imposed an order of restitution,
along with terms of imprisonment and supervised release. Id. Defendant now moves for this
Court to “clarify” language in his court-ordered schedule of restitution payments. See Def.’s
Ltrs., Dkts. 75, 76, 83, 84, 85. At the same time, the Government cross-moves to modify the
payment schedule pursuant to 18 U.S.C. § 3664(k), due to a material change in Defendant’s
economic circumstances. See Gov. Ltr., Dkt. 81. For the following reasons, Defendant’s motion
is GRANTED IN PART, and the Government’s motion is GRANTED.

BACKGROUND
The Court assumes familiarity with the facts of this case. See United States v. Gilmartin,
684 F. App’x 8 (2d Cir. 2017). Defendant was a “tax protestor” who claimed that the federal
government could not legally obligate him to pay income tax. See id. at 10; Gov. Ltr. at 2. i
After a seven-day trial in early 2013, a jury found Defendant guilty of multiple tax crimes and
mail fraud. See Gilmartin, 684 F. App’x at 10; Judgment, Dkt. 60.

1
According to Defendant, he is an “IRS protestor,” not a “tax protestor.” Dkt. 84 at 6. That distinction is
immaterial to the issue before the Court.

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 2 of 8

Prior to Defendant’s sentencing, the U.S. Office of Probation prepared a presentence
report (“PSR”). Although Defendant was eligible to draw Social Security retirement (he was 69
years old at the time), he was apparently not doing so, as the PSR reported that he had no income
and that his assets totaled $85. See Gov. Ltr. at 2. The PSR was entirely silent on the
Defendant’s eligibility for Social Security benefits. See id.
The Court sentenced Defendant to a term of imprisonment of four years, a term of
supervised release of three years, and a $500 special assessment. See Judgment at 1-4.2 The
Court also entered an order of restitution in the amount of $1,672,399.62. Id. at 5. The Court’s
schedule of payments ordered Defendant to pay restitution “in monthly installments of 10% of
the defendants [sic] earnings, after the defendant is earning money.”3 Id. at 6 (emphasis in
original).
While Defendant was incarcerated, he had no income other than his family’s occasional
financial support. See Dkt. 75 at 1; Dkt. 84 at 4-5, 8. The prison warden ordered Defendant to
pay restitution out of these support payments, but Defendant refused on the ground that the
payments did not constitute “earnings” within the meaning of the Court’s order. See Dkt. 75 at
1-2; Dkt 76 at 4; Dkt. 84 at 8-9. The warden levied administrative sanctions against Defendant
for failing to comply (for example, Defendant was not released to a halfway house and his access
to email, telephone, and the commissary was revoked); Defendant appealed those sanctions
within the Bureau of Prisons. See Dkt. 75 at 1; Dkt 76 at 4-5; Dkt. 84 at 8-9.
Once released from prison, sometime in mid-2017, Defendant decided to begin to draw
his Social Security retirement benefits. See Dkt. 75 at 1; Dkt. 84 at 4. Accordingly, Defendant’s

The presiding judge at Defendant’s trial and sentencing was the late Judge Miriam Goldman Cedarbaum.
3
The Court’s schedule of payments also ordered Defendant to pay the costs of prosecution ($2,532.52) as
part of these monthly installments. Judgment at 6.

2

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 3 of 8

probation officer ordered him to begin paying restitution out of his Social Security income.
See Dkt. 75 at 1-2; Dkt. 76 at 1. Defendant refused on the ground that Social Security benefits
are not “earnings.” See Dkt. 75 at 1-2; Dkt. 76 at 1.
Defendant then submitted several letters to this Court asking the Court to “clarify[]” that
family gifts and Social Security payments do not fall within the term “earnings.” See Dkts. 75,
76. He argued that he needed the Court’s “clarification” both to support his ongoing Bureau of
Prisons appeal and to forestall his probation officer from pursuing a violation of supervised
release based on his alleged failure to pay restitution. See Dkt. 75 at 2; Dkt. 76 at 1-2.
Defendant cited a number of statutes and regulations to argue that neither gifts nor Social
Security benefits are “earnings” under the federal tax laws. See Dkt. 76 at 3-4.
In response, the Government agreed with Defendant that his Social Security benefits do
not constitute “earnings” within the meaning of the Court’s schedule of restitution payments.
See Gov. Ltr. at 2-3. Nevertheless, the Government argued that Defendant’s decision to begin
drawing Social Security retirement benefits after he was released from prison constitutes a
“material change in the defendant’s economic circumstances,” entitling this Court to adjust
Defendant’s schedule of restitution payments pursuant to 18 U.S.C. § 3664(k).4 Id. at 3. The
Government moved this Court to require Defendant to pay restitution through a portion of his
Social Security benefits and any other financial resources available to him, regardless of whether

18 U.S.C. § 3664(k) provides in full:
A restitution order shall provide that the defendant shall notify the court and the Attorney General of any
material change in the defendant’s economic circumstances that might affect the defendant’s ability to pay
restitution. The court may also accept notification of a material change in the defendant’s economic
circumstances from the United States or from the victim. The Attorney General shall certify to the court
that the victim or victims owed restitution by the defendant have been notified of the change in
circumstances. Upon receipt of the notification, the court may, on its own motion, or the motion of any
party, including the victim, adjust the payment schedule, or require immediate payment in full, as the
interests of justice require.

3

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 4 of 8

they fall within the term “earnings.” Id. at 5. Defendant submitted several letters in reply.
See Dkts. 83, 84, 85.
DISCUSSION
I.

Defendant’s Motion to “Clarify” the Order of Restitution Is Granted in Part
Because the Government concedes that Social Security benefits are not “earnings,” the

portion of Defendant’s motion that relates to that question is granted.
The balance of Defendant’s motion, which relates to his receipt of gifts while
incarcerated, is denied. Defendant argues that he is presently appealing sanctions that the
warden imposed for his failure to pay restitution while incarcerated. See Dkt. 76 at 4. In
Defendant’s view, a ruling from this Court, clarifying that his family’s gifts were not subject to
restitution, is critical to his appeal. See Dkt. 76 at 2; Dkt. 85 at 2-3. But, as Defendant
acknowledges, he has not exhausted his administrative remedies as to this appeal, which
currently lies in the Bureau of Prisons. See Dkt. 84 at 9. Thus, this issue is not properly before
this Court, and the portion of Defendant’s motion that relates to this question is denied.
II.

The Government’s Motion to Adjust Defendant’s Restitution Schedule Is Granted
A.

Defendant’s Economic Circumstances Have Materially Changed

Upon “any material change in [a] defendant’s economic circumstances that might affect
the defendant’s ability to pay restitution,” a court may “adjust the payment schedule, or require
immediate payment in full, as the interests of justice require.” 18 U.S.C. § 3664(k); see also
United States v. Kyles, 601 F.3d 78, 83 (2d Cir. 2010); United States v. Grant, 235 F.3d 95, 100
(2d Cir. 2000). Finding a “material change” requires “an objective comparison of a defendant’s
financial condition before and after a sentence is imposed.” Grant, 235 F.3d at 100.
Defendant’s economic circumstances have clearly changed in light of his election to
begin receiving Social Security benefits. At the time of sentencing, Defendant had assets
4

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 5 of 8

totaling $85 and no income. See Gov. Ltr. at 2. Today, Defendant receives over $35,000 in
annual Social Security benefits. See Dkt. 84 at 3 n.l. By any measure, this change is objective
and material. Under these circumstances, § 3664(k) permits the court to adjust, or even
accelerate, Defendant’s schedule of restitution payments, so that his victims can be promptly and
justly compensated.
A straightforward application of the Second Circuit’s decision in Grant controls this
Court’s ruling. See 235 F.3d at 100. In Grant, at the time of the defendant’s sentencing, an
account containing money belonging to the defendant was “frozen” and, therefore, was
unavailable to the defendant. Id. at 98, 100. Sometime after sentencing, the account became
“unfrozen,” and the defendant gained access to the money. Id. at 98, 100-01. The Second
Circuit held that “[t]he release of the account and the consequent availability of the funds [met]
the statutory test for a ‘material change’” under § 3664(k). Id. at 101. The Court affirmed the
district court’s modification of the defendant’s restitution schedule. Id. Here, while Defendant
had the right to collect Social Security benefits at the time of sentencing, see Gov. Ltr., Ex. A,
those funds became available to Defendant only once he elected to receive them after sentencing.
In both this case and Grant, the change in the availability of funds after sentencing constitutes a
“material change” under § 3664(k).
The parties dispute whether Defendant adequately disclosed to the Court his right to
future Social Security benefits at the time of his sentencing. See Gov. Ltr. at 3-4; Def. Ltr., Dkt.
84, at 7-8. This dispute is immaterial. In Grant, the district court “made no factual finding”
whether the defendant had or had not failed to disclose the frozen account. 235 F.3d at 100. The
Second Circuit held that regardless of the defendant’s disclosure vel non, the unfreezing of the
account constituted an objective “material change in [his] economic circumstances” that

5

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 6 of 8

warranted modification. Id. at 100-01. Similarly, this Court need not find that Defendant failed
to disclose assets in order to modify his restitution schedule under § 3664(k), given the
undisputed fact that he now receives over $35,000 per year in income. The objective change in
Defendant’s income is sufficient.5
Defendant argues that there are no changed circumstances because the sentencing judge
knew that he was entitled to draw Social Security retirement benefits. See Dkt. 84 at 2. While
Defendant is no doubt correct that the sentencing judge knew that he was entitled to draw Social
Security, the issue is whether she foresaw that he would actually do so. After all, this Defendant
views Social Security benefits as “welfare,” id., and despite having been eligible to draw 100
percent of his Social Security retirement benefits since age 66, see Gov. Ltr., Ex. A, he had failed
to do so at the time he was sentenced, even though he had zero income, see id. at 2. Given those
facts, this Court cannot conclude that the sentencing judge intended to exclude Social Security
benefits as a source of income from which Defendant must pay restitution if he ultimately
decided to draw that benefit. Nevertheless, because the parties agree that Social Security
benefits do not constitute “earnings” within a narrow reading of the sentencing judge’s schedule
of payments, this Court will modify that schedule to (1) include those benefits on a go-forward
basis and (2) to accelerate his obligation to pay restitution in an amount equal to the Social
Security benefits that the Defendant has “escrowed” since this issue first arose. See Dkt. 85 at 2.
As a final matter, nothing in the Social Security Act limits this Court from adjusting
Defendant’s restitution schedule to account for his benefits. While the Act prohibits the

5
As in Grant, the question of whether a court can modify a restitution schedule based on a defendant’s
concealment of his assets (even if those assets did not materially change post-sentencing in an objective sense) is not
presented here. See Grant, 235 F.3d at 100 (“[W]e do not reach the issue of whether the subsequent discovery of
assets concealed by a defendant would constitute a material change in circumstances.”).

6

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 7 of 8

attachment or garnishment of Social Security income, see 42 U.S.C. § 407, actions to enforce the
payment of criminal restitution are exempt from that provision, see 18 U.S.C. § 3613(a), (f); In
re Partida, 862 F.3d 909, 912 (9th Cir. 2017) (“[T]he plain language of the MYRA makes clear
that the government can collect restitution, despite any federal laws to the contrary.”); United
States v. Lampien, 1 F. App’x 528, 531-32 (7th Cir. 2001) (court includes Social Security
benefits in its calculation of “the income from which [defendant] could make restitution”).6
B.

The Court’s Modification to Defendant’s Restitution Schedule

In light of the foregoing, the Court modifies the restitution order contained in
Defendant’s Judgment as follows:
The cost of prosecution ($2,532.52) and restitution ($1,672,399.62) is to be
collected in monthly installments equal to the amount of 10% of Defendant’s
earnings, Social Security benefits, and any pension, annuity, gift, inheritance, or
other source of income to which he is entitled. If Defendant has not yet paid the
$500.00 Special Assessment, he must do so immediately. In addition, Defendant
must immediately pay an amount equal to 10% of the monthly Social Security
benefits that he has received since he began to draw his Social Security retirement
(which the Court understands that he currently has “escrowed”).
The Court notes that this modification affects only the schedule of Defendant’s restitution
payments, not the total amount of restitution due. See Kyles, 601 F.3d at 83 (explaining that a
schedule of payments is an exercise of equitable discretion, and thus subject to modification,
whereas the amount of restitution is an imposed sentence, and thus entitled to finality); United
States v. Zaman, No. 03-CR-824 (FB), 2015 WL 778177, at *1 (E.D.N.Y. Feb. 24, 2015) (same
(citing Kyles, 601 F.3d at 83)).

6
To be clear, the Court is not ordering attachment or garnishment. The Court is merely taking into account
Defendant’s income from Social Security as a means of calculating an appropriate amount for Defendant to pay
monthly payments toward his restitution obligation.

7

Case l:12-cr-00287-VEC Document 86 Filed 05/01/18 Page 8 of 8

CONCLUSION
For all the foregoing reasons, Defendant’s motion to “clarify” the meaning of the word
“earnings” in his original Judgment is GRANTED IN PART. The Government’s cross-motion
to modify Defendant’s schedule of payments is GRANTED. The Clerk is respectfully directed
to close the open motion at Dkt. 75.
The Clerk is also respectfully directed to mail and email a copy of this order to Defendant
and to note mailing on the docket.

vJLcJlc

SO ORDERED.

—'

VALERIE CAPRONI *
United States District Judge

Dated: May 1, 2018
New York, New York

8

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 1 of 8
(NOTE: Identify Changes with Asterisks (*))

AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 1

|

United States District Court
Southern District of New York
UNITED STATES OF AMERICA

)

V.

)

David Gilmartin

Date of Original Judgment:

7/16/2013
(Or Date ofLast Amended Judgment)

Reason for Amendment:
O Correction of Sentence on Remand (18 U.S.C. 3742(f)(1) and (2))
□ Reduction of Sentence for Changed Circumstances (Fed. R. Crim.
P. 35(b))
□ Correction of Sentence by Sentencing Court (Fed. R. Crim. P. 35(a))
CD Correction of Sentence for Clerical Mistake (Fed. R. Criin. P. 36)

AMENDED JUDGMENT IN A CRIMINAL CASE

)

Case Number: 1:S1 12-CR-00287-01(VEC)

)
)
)
)
)
)
)
)
)
)
)
)

USM Number: 62712-112

:

Lowell H. Beacraft, Jr.,Esq.
Defendant’s Attorney
f~l Modification of Supervision Conditions (18 U.S.C. §§ 3563(c) or 3583(c))
[~] Modification of Imposed Term of Imprisonment for Extraordinary and
Compelling Reasons (18 U.S.C. § 3582(c)(1))
|~| Modification of Imposed Term of Imprisonment for Retroactive Amendment(s)
to (he Sentencing Guidelines (18 U.S.C. § 3582(c)(2))
CD Direct Motion to District Court Pursuant CD 28 U.S.C. § 2255 or
□ 18 U.S.C. § 3559(c)(7)
Ef ModificationofRestitutionOrder(18U.S.C. §3664)

THE DEFENDANT:
□ pleaded guilty to count(s) ______
□ pleaded nolo contendere to count(s)
which was accepted by the court.
1, 2, 3, 4, and 5
[vf was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

26 U.S.C, 7212(a)

i

!

Offense Ended

Nature of Offense

. 12/31/2010

: Corrupt Endeavor to Impede the Due Administration of the

Count

i: 1

Internal Revenue Service

i

26 U.S.C. 7201

■ Evasion of Payment of Income Taxes.
8
The defendant is sentenced as provided in pages 2 through

. 6/25/2012

.2

. ;

of this judgment. The sentence is imposed pursuant to

i

the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)
□ Count(s)

i

□ is

_____
□ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

7/25/2013
Date of Imposition of Judgment

Signature of Judge

USDCSDNY
DOCUMENT

electronically FILED

'

Valerie Caproni, U.S.D.J.
Name and Title of Judge
5/1/2018
Date

DOC #:

DATE FfLEpTfS/ l \ \&

:

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 2 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 1A

(NOTE: Identity Changes with Asterisks (*))

&

of

Judgment — Page 2.

DEFENDANT: David Gilmartin

CASE NUMBER: 1: S1 12-CR-00287-01 (VEC)

ADDITIONAL COUNTS OF CONVICTION
Failure to file a U.S. Individual Income Tax-2005 Tax

26 U.S.C. 7203 .

3

! 4/17/2006

Year

: 4
5

6/25/2012

Mail Fraud

18 U.S.C. 1341 and 2

n-:

m

: 4/17/2006

- Failure to Pay Tax 2005 Tax Year

26 U.S.C, 7203

Count

Offense Ended

Nature of Offense

Title & Section

'■■'I:':-.

:;d

•it

&

#|i

I

t

£

$

■

%

SI

i

-4

■

•ft
l

Ill
i

ji

!

SS?

j-

;•

i

%
••
\

:•} i;

.

.3

:?!;

ISWIiliiiaiiiiiSiii

&vs

lilftB! ISIllStlMii
i

:vi;

:

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 3 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 2 — Imprisonment

(NOTE: Identify Changes with Asterisks (*))
Judgment — Page

3

of

DEFENDANT: David Gilmartin
CASE NUMBER: 1: S1 12-CR-00287-01(VEC)

8
i

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a
total term of: 4 years.

(vf

The court makes the following recommendations to the Bureau of Prisons:

The Court recommends that the Bureau of Prisons designate the defendant to FPC.Lompoc.

□

The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the United States Marshal for this district:

@1

□

at

□

as notified by the United States Marshal.

□

a.m,

□

p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
12pm
10/1/2013
0 before Xp.m. on
□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

i

!
I

RETURN
I have executed this judgment as follows:

!
to

Defendant delivered on
at

with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

!

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 4 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 3 — Supervised Release

(NOTE: Identity Changes with Asterisks (*))
of
I
Judgment—Page 4

DEFENDANT: David Gilmartin
CASE NUMBER: 1: S1 12-CR-00287-01 (VEC)

SUPERVISED RELEASE

\

Upon release from imprisonment, you will be on supervised release for a term of: 3 years.

|

MANDATORY CONDITIONS
1. You must not commit another federal, state or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
[Vf The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse, (check ifapplicable)
4. Qf You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663 A or any other statute authorizing a sentence of
restitution, (check ifapplicable)
5. □ You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
6. □ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check ifapplicable)
7. □ You must participate in an approved program for domestic violence, (check ifapplicable)
You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

i

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 5 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page 5

of

s

DEFENDANT: David Gilmartin
CASE NUMBER: 1: S1 12-CR-00287-01(VEC)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

i

I
i
i

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

1
I

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 6 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 3D — Supervised Release

(NOTE: Identify Changes with Asterisks (*))
of
Judgment—Page £.
&

DEFENDANT: David Gilmartin
CASE NUMBER: 1: S1 12-CR-00287-01(VEC)
SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide the probation officer with access to any requested financial
information.
The defendant shall not incur new credit charges or open additional lines of credit without the
approval of the probation officer unless the defendant is in compliance with the installment
payment schedule.
The defendant shall submit his person, residence, place of business, vehicle, or any other premises
under his control to a search on the basis that the probation officer has reasonable belief that
contraband or evidence of a violation of the conditions of the release may be found. The search
must be conducted at a reasonable time and in reasonable manner. Failure to submit to a search may
be grounds for revocation. The defendant shall inform any other residents that the premises may be
subject to search pursuant to this condition.
The defendant is to report to the nearest Probation Office within 72 hours of release from custody.
If the defendant is sentenced to any period of supervision, it is recommended that the defendant be
supervised by the district of residence.

!
■i

;

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 7 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

(NOTE: Identity Changes with Asterisks (*))
8
of
Judgment — Page J

DEFENDANT: David Gilmartin
CASENUMBER: 1: S1 12-CR-00287-01(VEC)

CRIMINAL MONETARY PENALTIES
The defendant must pay the following total criminal monetary penalties under the schedule of payments on Sheet 6.
Restitution
JVTA Assessment*
Fine
Assessment
$
$
$
TOTALS
1,672,399.62
$ 500.00
. An Amended Judgment in a Criminal Case (AO 245C) will be

□ The determination of restitution is deferred until
entered after such determination.

□ The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise jn
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Restitution Ordered

Total Loss**

Name of Payee

$1,573,104.85

Internal Revenue Service

,

$1,573,104.85

i

Priority or Percentage
8

100%

IRS-RACS, Attn: Mail Stop
3

6261, Restitution 333 W. Persh­
ing Ave., Kansas City, MO 64108
$99,294.77100%

$99,294.77

New York State Department

' V

-

of Taxation and Finance,
P.O. Box 5300, Albany, NY
12205
■-

.,

TOTALS

1,672,399.62

$

$

1,672,399.62

□

Restitution amount ordered pursuant to plea agreement $ ____________________

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest, and it is ordered that:
□ the interest requirement is waived for
□ the interest requirement for the

□

□ fine
fine

□ restitution.

' □ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110,110A, and 113A of Title 18 for offenses committed on or
after September 13,1994, but before April 23, 1996.

j

Case l:12-cr-00287-VEC Document 87 Filed 05/01/18 Page 8 of 8
AO 245C (Rev. 02/18) Amended Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

(NOTE: Identify Changes with Asterisks (*))
Judgment — Page

8

of

1

DEFENDANT: David Gilmartin
CASENUMBER: 1: S1 12-CR-00287-01(VEC)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties shall be due as follows:
A

[vf Lump sum payment of $

500.00

due immediately, balance due

□ not later than _____________________ , or
□ in accordance with DC, □ D, □ E, or

[Vf F below; or

□ Payment to begin immediately (may be combined with

C

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., months or years), to commence

D

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after release from imprisonment to a
(e.g., months or years), to commence
term of supervision; or

E

□ Payment during the term of supervised release will commence within________ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ C,

□ D, or □ F below); or

B

$ Special instructions regarding the payment of criminal monetary penalties:
The cost of prosecution ($2,532.52) and restitution ($1,672,399.62) is to be collected in monthly installments equal to the amount
(*)
of 10% of Defendant’s earnings, Social Security benefits, and any pension, annuity, gift, inheritance, or other source of income to
which he is entitled. If Defendant has not yet paid the $500.00 Special Assessment, he must do so immediately. In addition,
Defendant must immediately pay an amount equal to 10% of the monthly Social Security benefits that he has received since he
began to draw his Social Security retirement ( which the Court understands that he currently has “escrowed”).

Unless the court^has expressly ordered otherwise, if this judgment imposes ^imprisonment, payment^of criminahnonetag' penalties^due,
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.
!

Ef The defendant shall pay the cost of prosecution. $2,532.52

I
i

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal. (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JvTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

■

